No. 21-388
MacIver Institute for Public Policy, Inc., et al. v. Tony Evers
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae of Center for Constitutional Jurisprudence in Support of Petitioner contains
2,773 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 12, 2021.

ANTHONY T. CASO

